HHS/OIG, Audit - "Review of Segmented Postretirement Benefit Assets at
First Coast Service Options from January 1, 2002 to January 1, 2005,"
(A-07-06-00225)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Segmented
Postretirement Benefit Assets at First Coast Service Options from January 1,
2002 to January 1, 2005," (A-07-06-00225)
December 7, 2006
Complete Text of Report is available in PDF format (265 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether First Coast Service Option (FCSO) properly identified and updated the Medicare segment's portion of post retirement benefit (PRB) assets from January 1, 2002 to January 1, 2005. We found that FCSO did not properly update the Medicare segment’s PRB assets from January 1, 2002 to January 1, 2005. As a result, Florida understated segment assets as of January 1, 2005 by $13,018. The understatement resulted from the approach used in allocating contributions and prepayment credits to the Medicare segment. We recommended that FCSO increase the Medicare segment PRB assets by $13,018 as of January 1, 2005.